No. 20-1530
IN THE SUPREME COURT OF THE UNITED STATES
STATE OF WEST VIRGINIA, ET AL.,
Petitioners,
v.
U.S. ENVIRONMENTAL PROTECTION AGENCY AND
MICHAEL REGAN, ADMINISTRATOR OF THE
U.S. ENVIRONMENTAL PROTECTION AGENCY,
Respondents.
On Petition for A Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
RESPONSE OF AMERICA’S POWER IN SUPPORT OF CERTIORARI

HUNTON ANDREWS KURTH LLP
F. WILLIAM BROWNELL
ERICA N. PETERSON
2200 Pennsylvania Ave., NW
Suite 900
Washington, DC 20037
(202) 955-1500

HUNTON ANDREWS KURTH LLP
ELBERT LIN
Counsel of Record
951 East Byrd Street, East Tower
Richmond, Virginia 23219
elin@HuntonAK.com
(804) 788-8200

June 3, 2021

Counsel for Respondent America’s Power

CORPORATE DISCLOSURE STATEMENT
Respondent America’s Power is a trade association comprised of companies
involved in the production of electricity from coal. It has no parent corporation, and
no publicly held company owns a 10 percent or greater interest in America’s Power.

i

RESPONSE IN SUPPORT OF CERTIORARI
America’s Power agrees with West Virginia and others that it is essential to
maintain electric grid reliability and resilience, as well as affordable electricity prices.
America’s Power has always maintained that the U.S. Environmental Protection
Agency (EPA) does not have the authority under section 7411(d) of the Clean Air Act,
42 U.S.C. § 7411(d), to require electric utilities to reduce operations of their coal-fired
generating plants, and then to replace that lost capacity with alternative sources of
generation in order to reduce carbon emissions. As explained in previous filings,
America’s Power believes that the question of how to restructure broad segments of
American industry to reduce carbon emissions is a matter for States or Congress, not
EPA under this little-used provision of the Clean Air Act.
America’s Power acknowledges that climate change is an important national
and international issue. Of similar importance is the question of which parts of the
federal government have the authority to address climate change and in what
ways. For these reasons, America’s Power supports granting certiorari to provide
clarity as to, and resolve the ongoing controversy over, the nature and extent of EPA’s
authority under section 7411(d) of the Clean Air Act.
Respectfully submitted,
HUNTON ANDREWS KURTH LLP
ELBERT LIN
Counsel of Record
951 East Byrd Street, East Tower
Richmond, Virginia 23219
elin@HuntonAK.com
(804) 788-8200

F. WILLIAM BROWNELL
ERICA N. PETERSON
2200 Pennsylvania Avenue, NW, Suite 900
Washington, DC 20037
(202) 955-1500
June 3, 2021

Counsel for Respondent America’s Power

2

